 ",,,t' :'EHYIC~:~



                         DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office
                                                                                                       Office of
                                                                                                              of Inspector
                                                                                                                  Inspector General
                                                                                                                            General
('''~",.::
     l DEPARTMENT OF HEALTH & HUAN SERVICES

                                                                                                       Washington, D.C.
                                                                                                       Washington, D.C. 20201

                                                                                                                         20201




                                                                        JUl
                                                                        JUl 223m
                                                                            223m

             TO:
             TO: Charlene  Frizzera
                      Charlene Frizzera
                                     Acting Administrator
                                     Acting Administrator
                                                 Medicare &
                                     Centers for Medicare   Medicaid Services
                                                          & Medicaid Services


                  ~~~
              FROM:
              FROM:
                ~;:;~ty
                        ~~~             Inspector
                           ~;:;~ty Inspector      General
                                              General forfor AuditServices

                                                           Audit   Services


              SUBJECT:
              SUBJECT: Review of 
   Review of Pension Costs
                                                        Costs Claimed
                                                              Claimed for
                                                                      for Medicare
                                                                          Medicare Reimbursement
                                                                                   Reimbursement by
                                                                                                 by Triple-S,
                                                                                                    Triple-S, Inc.,
                                                                                                               Inc.,
                                     for Fiscal
                                     for Fiscal Years
                                                Years 1988
                                                      1988 Through 2006 (A-07-08-00268)


              Attached is an advance copy of our final report on the pension costs claimed for Medicare
              Attached is an advance copy of our final report on the pension costs claimed for 


              reimbursement by
              reimbursement    by Triple-S,
                                  Triple-S, Inc.
                                            Inc. (Triple-S).
                                                 (Triple-S). We will issue this
                                                                wil issue   this report
                                                                                 report to
                                                                                        to Triple-S
                                                                                           Triple-S within
              5 business days.

              Triple-S
              Triple-S has
                       has administered
                           administered Medicare
                                        Medicare Part
                                                 Par BB operations
                                                        operations under
                                                                   under cost
                                                                          cost reimbursement contracts with
                                       & Medicaid Services
              the Centers for Medicare &          Services (CMS)
                                                            (CMS) since
                                                                    since 1966.
                                                                          1966.

              Medicare reimburses
                          reimburses aaportion
                                        portion of
                                                of the
                                                   the annual  contributionsthat
                                                       anual contributions   thatcontractors
                                                                                  contractors make
                                                                                              make to
                                                                                                   to their
                                                                                                       their pension
                                                                                                             pension
              plans.  In claiming
              plans. In  claiming costs,
                                  costs, contractors
                                         contractors must
                                                       must follow
                                                            follow cost
                                                                    cost reimbursement
                                                                         reimbursement principles contained
                                                                                                   contained in the
              Federal
              Federal  Acquisition Regulation,   Cost  Accounting   Standards  (CAS),  and Medicare   contracts.

              Our objective
                  objective was
                            was to
                                to determine the
                                             the allowability of pension costs that Triple-S claimed for
              Medicare
              Medicare reimbursement for fiscal years (FY) 1988 through 2006.

              Triple-S      claimed
              Triple-S claimed $2,945,128 $2,945,128
                                          of 
         of unallowable Medicare pension costs for FYs 19881988 through 2006.
              This
              This overstatement
                      overstatement occurred  occurred primarily
                                                       primarily because Triple-S
                                                                           Triple-S calculated
                                                                                    calculated pension
                                                                                               pension expense using
              Financial
              Financial Accounting Standard No. 87, a standard intended for financialreporting.
                             Accounting         Standard  No. 87, a standard  intended for financial reporting. Using this
              standard,
              standard, Triple-S
                              Triple-S claimed
                                            claimed $7,069,369
                                                     $7,069,369 inin Medicare
                                                                     Medicare reimbursement.
                                                                                reimbursement. We calculated allowable
              pension      costs    for   this
              pension costs for this period    period in accordance   with CAS    412 and 413, as required by the Medicare
              contracts,
              contracts, to    to be
                                   be $4,124,241,
                                        $4,124,241, aadifference
                                                        differenceof$2,945,128.
                                                                    of$2,945,128.

              We
              We recommend
                    recommend that
                                that Triple-S
                                     Triple-S (1)
                                              (1) reduce
                                                   reduce its
                                                          its Final
                                                              Final Administrative
                                                                    Administrative Cost Proposal (FACP)
                                                                                                  (FACP) pension
                                                                                                          pension
              costs  by $2,945,128  or refund  this amount   to CMS  and (2) ensure that
              costs by $2,945,128 or refund this amount to CMS and (2) ensure that futurefuture pension cost claims
                                                                                                             claims
              are
              are in
                   in accordance
                      accordance with
                                  with the
                                       the Medicare
                                           Medicare contracts.
                                                      contracts.
Page 2 – Charlene Frizzera


In written comments on our draft report, Triple-S stated that it was not in a position to concur
with our recommendations because its Medicare contract had been terminated. After reviewing
Triple-S’s comments, we maintain that our finding and recommendations are valid.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-08-00268.

Attachment
{"'?
. <.,,:~
("'1
                  DEPARTMENT OF HEALTH & HUMAN SERVICES
 ..,.,,:~DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                                        Offce of
                                                                                                        Office
                                                                                                        Offices
                                                                                                               of Inspector
                                                                                                        Offces of
                                                                                                                  Inspector General
                                                                                                                ofAudit



                                                                                                         Region VII
                                                                                                                            General
                                                                                                                   Audit Services
                                                                                                                         Services




                                                                                                         601 East
                                                                                                         601      12th Street
                                                                                                             East12lh

                                                          JUl 2 88 2009
                                                          JUL       20                                   Room 284A
                                                                                                         Kansas City, Missouri
                                                                                                                      Missouri 64106


                  Number: A-07-08-00268
           Report Number:

           Gloria M. Lebrón,
                      Lebron, Esq.
           Medicare Program Vice President
           Triple-S, Inc.
           P.O. Box 71391
               Juan, Puerto
           San Juan,  Puerto Rico
                             Rico 00936-1391
                                   00936-1391

           Dear Ms. Lebrón:
                    Lebron:

           Enclosed
           Enclosed is the is
                           U.S.the  U.S.ofDepartment
                                Department  
                                       Services (HHS),
                                                          of Health and Human Services       (HHS), Office
                                                                                                     Office ofInspector
                                                                                                            ofInspector
           General (DIG),(OIG), finalfinal report entitled "Review of  of Pension Costs Claimed for Medicare
           Reimbursement by
           Reimbursement              by Triple-S,
                                           Triple-S, Inc.,
                                                     Inc., for
                                                            for Fiscal
                                                                Fiscal Years
                                                                       Years 1988
                                                                              1988Through
                                                                                      Through2006."
                                                                                               2006." We
                                                                                                      We will
                                                                                                          wil forward
                                                                                                               forward a copy
           of
           of  this report to the HHS      HHS action official
                                                        offcial noted
                                                                  noted on
                                                                        on the
                                                                            the following
                                                                                 following page
                                                                                           page for review and any action
           deemed necessary.

           The HHSHHS action official will         wil make
                                                          make finalfinal determination
                                                                            determination as as to
                                                                                                 to actions
                                                                                                    actions taken
                                                                                                            taken on
                                                                                                                  on all
                                                                                                                     all matters
                                                                                                                         matters reported.
           We    request
           We request that youthat   you
                               respond      respond
                                       to this            to 30this
                                               offcial within    days official    within
                                                                      from the date of                                   letter. Your
                                                                                         30 days from the date of this letter.
           response should present any comments or additional information that you believe may have a
           bearing on the final determination.

                     to the
           Pursuant to  the Freedom ofInformation
                                      ofInformation Act,
                                                      Act, 55 U.S.C.
                                                              U.S.C. §§ 552,
                                                                        552, OIG
                                                                             GIG reports
                                                                                   reports generally
                                                                                           generally are made
           available to
                     to the public to the extent that information in the report is not subject to exemptions in
               Act. Accordingly,
           the Act. Accordingly, this
                                   this report
                                        report wil
                                               willbe
                                                    beposted
                                                       postedononthe
                                                                  theInternet
                                                                      Internet at
                                                                               at http://oig.hhs.gov.
                                                                                  http://oig.hhs.gov.

           If you have any questions or comments about this report, please do not hesitate to call me at
           (816)     426-3591, or your staff may contact Jenenne Tambke, Audit Manager, at (573) 893-8338,
           (816) 426-3591, or your staff 


           extension 21,   21, or through
                                      through email at
                                                    at Jenenne.Tambke@oig.hhs.gov.
                                                       Jenenne.Tambkeinoig.hhs.gov. Please
                                                                                    Please refer
                                                                                           refer to report number
           A-07-08-00268 in all correspondence.

                                                                      Sincerely,



                                                                      Patrick J.
                                                                              J. Cogley
                                                                      Regional Inspector General
                                                                       for Audit Services


           Enclosure
Page 2 – Gloria M. Lebrón, Esq.


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




        REVIEW OF
PENSION COSTS CLAIMED FOR
MEDICARE REIMBURSEMENT BY
 TRIPLE-S, INC., FOR FISCAL
 YEARS 1988 THROUGH 2006




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-07-08-00268
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Triple-S, Inc. (Triple-S), has administered Medicare Part B operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS) since 1966.

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

OBJECTIVE

Our objective was to determine the allowability of pension costs that Triple-S claimed for
Medicare reimbursement for fiscal years (FY) 1988 through 2006.

SUMMARY OF FINDING

Triple-S claimed $2,945,128 of unallowable Medicare pension costs for FYs 1988 through 2006.
This overstatement occurred primarily because Triple-S calculated pension expense using
Financial Accounting Standard No. 87, a standard intended for financial reporting. Using this
standard, Triple-S claimed $7,069,369 in Medicare reimbursement. We calculated allowable
pension costs for this period in accordance with CAS 412 and 413, as required by the Medicare
contracts, to be $4,124,241, a difference of $2,945,128.

RECOMMENDATIONS

We recommend that Triple-S:

   •   reduce its Final Administrative Cost Proposal (FACP) pension costs by $2,945,128 or
       refund this amount to CMS and

   •   ensure that future pension cost claims are in accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, Triple-S stated that it was not in a position to concur
with our recommendations because its Medicare contract had been terminated. Triple-S’s
comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Triple-S’s comments, we maintain that our finding and recommendations are
valid.




                                                 i
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Triple-S ................................................................................................................1
              Medicare Reimbursement of Pension Costs ........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
               Objective ..............................................................................................................1
               Scope....................................................................................................................1
               Methodology ........................................................................................................1

FINDING AND RECOMMENDATIONS...............................................................................2

          FEDERAL REQUIREMENTS........................................................................................2

          UNALLOWABLE PENSION COSTS CLAIMED ........................................................2

          RECOMMENDATIONS.................................................................................................3

          AUDITEE COMMENTS.................................................................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................4

APPENDIXES

          A – ALLOWABLE MEDICARE PENSION COSTS FOR TRIPLE-S, INC.,
              FOR FISCAL YEARS 1988 THROUGH 2006

          B – AUDITEE COMMENTS




                                                                    ii
                                      INTRODUCTION

BACKGROUND

Triple-S

Triple-S, Inc. (Triple-S), has administered Medicare Part B operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS) since 1966.

Medicare Reimbursement of Pension Costs

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that Triple-S claimed for
Medicare reimbursement for fiscal years (FY) 1988 through 2006.

Scope

We reviewed $7,069,369 of pension costs that Triple-S claimed for Medicare reimbursement on
its Final Administrative Cost Proposals (FACP) for FYs 1988 through 2006. Achieving our
objective did not require that we review Triple-S’s overall internal control structure. However,
we did review the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at Triple-S’s office in San Juan, Puerto Rico, during March and April
2008.

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed Triple-S’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 1988 through 2006. We also determined the extent to which Triple-S
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on Triple-S’s historical practices and on the results of our
segmentation review, “Review of the Qualified Pension Plan at Triple-S, Inc., for the Period
January 1, 1986, Through January 1, 2007” (A-07-08-00266).



                                                1
In performing our review, we used information that Triple-S’s actuarial consulting firm
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined Triple-S’s
accounting records, pension plan documents, annual actuarial valuation reports, and Department
of Labor/Internal Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

Triple-S claimed $2,945,128 of unallowable Medicare pension costs for FYs 1988 through 2006.
This overstatement occurred primarily because Triple-S calculated pension expense using
Financial Accounting Standard No. 87, a standard intended for financial reporting. Using this
standard, Triple-S claimed $7,069,369 in Medicare reimbursement. We calculated allowable
pension costs for this period in accordance with CAS 412 and 413, as required by the Medicare
contracts, to be $4,124,241, a difference of $2,945,128.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

UNALLOWABLE PENSION COSTS CLAIMED

Triple-S claimed $2,945,128 of unallowable Medicare pension costs for FYs 1988 through 2006.
During that period, Triple-S claimed pension costs of $7,069,369 for Medicare reimbursement.
We calculated allowable pension costs based on separately computed CAS pension costs for the
Medicare segment and the “Other” segment in accordance with CAS 412 and 413. Based on the
terms of the Medicare contracts, the allowable CAS pension costs for this period totaled
$4,124,241.



                                                2
The following table compares the pension costs claimed on Triple-S’s FACPs with allowable
CAS pension costs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Claimed Pension Costs and Allowable Pension Costs

                                   Medicare Pension Costs
                                   Claimed      Allowable
                 Fiscal Year      by Triple-S   per Audit          Difference
                    1988              $30,258       $23,793             $6,465
                    1989               82,404        12,365             70,039
                    1990              183,308        14,606            168,702
                    1991              227,409       133,278             94,131
                    1992              319,366       160,481            158,885
                    1993              334,137       181,385            152,752
                    1994              260,834       218,481             42,353
                    1995              355,368       123,425            231,943
                    1996              285,723        85,442            200,281
                    1997              269,408       175,903             93,505
                    1998              314,149       101,552            212,597
                    1999              330,348        85,183            245,165
                    2000              373,739        16,254            357,485
                    2001              309,904        20,200            289,704
                    2002              567,844       231,823            336,021
                    2003              629,104       475,493            153,611
                    2004              746,603       632,487            114,116
                    2005              719,566       694,176             25,390
                    2006              729,897       737,914              (8,017)
                     Total         $7,069,369    $4,124,241         $2,945,128

The Medicare contracts require Triple-S to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, Triple-S based its claim on pension expense calculated
for financial reporting purposes using Financial Accounting Standard No. 87 (FAS 87). As a
result, Triple-S claimed $2,945,128 of unallowable pension costs.

RECOMMENDATIONS

We recommend that Triple-S:

   •   reduce its FACP pension costs by $2,945,128 or refund this amount to CMS and

   •   ensure that future pension cost claims are in accordance with the Medicare contracts.




                                               3
AUDITEE COMMENTS

In written comments on the draft report, Triple-S stated that it was not in a position to concur
with the recommendations related to reimbursing funds to the Medicare program. 1 Triple-S
stated that its Medicare contract ended in March 2009 and requested “. . . that the
implementation of the recommendation of reducing the Final Administrative Cost Proposal
pension costs contained in the aforementioned reports be evaluated in light of the fact that the
current program has been terminated.” Triple-S also requested “. . . that the final determination
or settlement be deferred until after the final analysis of the pension plan costs . . . is concluded.”

Triple-S’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Triple-S’s comments, we maintain that Triple-S did not comply with its
contracts’ provisions when it based its pension costs claimed for Medicare reimbursement on the
FAS 87 pension expense instead of CAS 412 and 413. Therefore, Triple-S should reduce its
FACP pension costs by $2,945,128 or refund this amount to CMS, and it should ensure that
future pension cost claims are in accordance with the Medicare contracts.

The costs associated with the Medicare contract termination and computation of the segment
closing are outside the scope of this audit. CMS has informed us that Triple-S will continue to
have a contractual relationship with the Medicare program.




1
 Triple-S provided a single set of written comments for both this report and its companion report, the segmentation
review entitled “Review of the Qualified Pension Plan at Triple-S, Inc., for the Period January 1, 1986, Through
January 1, 2007” (A-07-08-00266).


                                                         4
APPENDIXES
         ALLOWABLE MEDICARE PENSION COSTS FOR TRIPLE-S, INC.,                        APPENDIX A
                FOR FISCAL YEARS 1988 THROUGH 2006                                     Page 1 of 12


                                               Total       "Other"      Medicare        Total
Date              Description                 Company      Segment      Segment        Medicare

 1987     Contributions                  1/    $740,661     $673,755      $66,906
8.50%     Discount for interest          2/     (48,456)     (44,079)      (4,377)
1/1/87    Present value contributions    3/     692,205      629,676       62,529
          Prepayment credit applied      4/      20,276       18,440        1,836
          Present value of funding       5/     712,481      648,116       64,365

1/1/87    CAS funding target             6/     710,754      646,389       64,365
          Percentage funded              7/                  100.00%      100.00%
          Funded pension cost            8/                  646,389       64,365
          Allowable interest             9/                   37,808        3,765
          Allocable pension cost        10/                  684,197       68,130




 1988     Contributions                              $0           $0           $0
9.00%     Discount for interest                       0            0            0
1/1/88    Present value contributions                 0            0            0
          Prepayment credit applied               1,873        1,873            0
          Present value of funding                1,873        1,873            0

1/1/88    CAS funding target                    501,635      501,635            0
          Percentage funded                                    0.37%        0.00%
          Funded pension cost                                  1,873            0
          Allowable interest                                       0            0
          Allocable pension cost                               1,873            0
1988      Fiscal year pension cost      11/                  172,454       17,033
          Medicare LOB* percentage      12/                    3.92%      100.00%

          Allowable pension cost        13/                   $6,760      $17,033         $23,793
                                                                             APPENDIX A
                                                                               Page 2 of 12



                                        Total       "Other"      Medicare       Total
Date             Description           Company      Segment      Segment       Medicare

 1989    Contributions                  $419,947     $419,947           $0
9.00%    Discount for interest           (24,515)     (24,515)           0
1/1/89   Present value contributions     395,432      395,432            0
         Prepayment credit applied             0            0            0
         Present value of funding        395,432      395,432            0

1/1/89   CAS funding target              618,315      618,315            0
         Percentage funded                             63.95%        0.00%
         Funded pension cost                          395,432            0
         Allowable interest                            24,515            0
         Allocable pension cost                       419,947            0
1989     Fiscal year pension cost                     315,429            0
         Medicare LOB* percentage                       3.92%      100.00%

         Allowable pension cost                       $12,365           $0        $12,365




 1990    Contributions                  $358,633     $358,633           $0
9.00%    Discount for interest           (23,195)     (23,195)           0
1/1/90   Present value contributions     335,438      335,438            0
         Prepayment credit applied             0            0            0
         Present value of funding        335,438      335,438            0

1/1/90   CAS funding target              645,603      645,603            0
         Percentage funded                             51.96%        0.00%
         Funded pension cost                          335,438            0
         Allowable interest                            21,384            0
         Allocable pension cost                       356,822            0
1990     Fiscal year pension cost                     372,603            0
         Medicare LOB* percentage                       3.92%      100.00%

         Allowable pension cost                       $14,606           $0        $14,606
                                                                               APPENDIX A
                                                                                 Page 3 of 12


                                        Total        "Other"      Medicare        Total
Date             Description           Company       Segment      Segment        Medicare

 1991    Contributions                 $1,036,198     $891,219     $144,979
9.00%    Discount for interest            (76,163)     (65,507)     (10,656)
1/1/91   Present value contributions      960,035      825,712      134,323
         Prepayment credit applied              0            0            0
         Present value of funding         960,035      825,712      134,323

1/1/91   CAS funding target              857,465       723,142      134,323
         Percentage funded                             100.00%      100.00%
         Funded pension cost                           723,142      134,323
         Allowable interest                             46,100        8,563
         Allocable pension cost                        769,242      142,886
1991     Fiscal year pension cost                      666,137      107,165
         Medicare LOB* percentage                        3.92%      100.00%

         Allowable pension cost                        $26,113     $107,165        $133,278




 1992    Contributions                 $1,098,038     $989,041     $108,997
9.00%    Discount for interest            (60,146)     (54,176)      (5,970)
1/1/92   Present value contributions    1,037,892      934,865      103,027
         Prepayment credit applied        111,801       97,533       14,268
         Present value of funding       1,149,693    1,032,398      117,295

1/1/92   CAS funding target              919,077       801,782      117,295
         Percentage funded                             100.00%      100.00%
         Funded pension cost                           801,782      117,295
         Allowable interest                             40,812        5,970
         Allocable pension cost                        842,594      123,265
1992     Fiscal year pension cost                      824,256      128,170
         Medicare LOB* percentage                        3.92%      100.00%

         Allowable pension cost                        $32,311     $128,170        $160,481
                                                                                APPENDIX A
                                                                                  Page 4 of 12


                                        Total        "Other"       Medicare        Total
Date             Description           Company       Segment       Segment        Medicare

 1993    Contributions                 $1,308,605    $1,189,530     $119,075
8.50%    Discount for interest            (67,446)      (61,309)      (6,137)
1/1/93   Present value contributions    1,241,159     1,128,221      112,938
         Prepayment credit applied        251,371       218,675       32,696
         Present value of funding       1,492,530     1,346,896      145,634

1/1/93   CAS funding target             1,119,651       974,017      145,634
         Percentage funded                              100.00%      100.00%
         Funded pension cost                            974,017      145,634
         Allowable interest                              41,046        6,137
         Allocable pension cost                       1,015,063      151,771
1993     Fiscal year pension cost                       971,946      144,645
         Medicare LOB* percentage                         3.78%      100.00%

         Allowable pension cost                        $36,740      $144,645        $181,385




 1994    Contributions                 $1,691,340    $1,552,897     $138,443
8.00%    Discount for interest            (86,772)      (79,669)      (7,103)
1/1/94   Present value contributions    1,604,568     1,473,228      131,340
         Prepayment credit applied        404,573       354,486       50,087
         Present value of funding       2,009,141     1,827,714      181,427

1/1/94   CAS funding target             1,465,454     1,284,026      181,428
         Percentage funded                              100.00%      100.00%
         Funded pension cost                          1,284,026      181,428
         Allowable interest                              50,268        7,103
         Allocable pension cost                       1,334,294      188,531
1994     Fiscal year pension cost                     1,254,486      179,341
         Medicare LOB* percentage                         3.12%      100.00%

         Allowable pension cost                        $39,140      $179,341        $218,481
                                                                                APPENDIX A
                                                                                  Page 5 of 12


                                        Total        "Other"       Medicare        Total
Date             Description           Company       Segment       Segment        Medicare

 1995    Contributions                 $1,576,278    $1,536,104      $40,174
8.50%    Discount for interest            (79,760)      (77,727)      (2,033)
1/1/95   Present value contributions    1,496,518     1,458,377       38,141
         Prepayment credit applied        587,182       551,512       35,670
         Present value of funding       2,083,700     2,009,889       73,811

1/1/95   CAS funding target             1,215,025     1,141,214       73,811
         Percentage funded                              100.00%      100.00%
         Funded pension cost                          1,141,214       73,811
         Allowable interest                              31,429        2,033
         Allocable pension cost                       1,172,643       75,844
1995     Fiscal year pension cost                     1,213,056      104,016
         Medicare LOB* percentage                         1.60%      100.00%

         Allowable pension cost                        $19,409      $104,016        $123,425




 1996    Contributions                 $1,479,138    $1,457,208      $21,930
8.50%    Discount for interest            (96,560)      (95,128)      (1,432)
1/1/96   Present value contributions    1,382,578     1,362,080       20,498
         Prepayment credit applied        942,512       909,359       33,153
         Present value of funding       2,325,090     2,271,439       53,651

1/1/96   CAS funding target             1,525,259     1,471,607       53,652
         Percentage funded                              100.00%      100.00%
         Funded pension cost                          1,471,607       53,652
         Allowable interest                              33,852        1,234
         Allocable pension cost                       1,505,459       54,886
1996     Fiscal year pension cost                     1,422,255       60,126
         Medicare LOB* percentage                         1.78%      100.00%

         Allowable pension cost                        $25,316       $60,126         $85,442
                                                                                APPENDIX A
                                                                                  Page 6 of 12


                                        Total        "Other"       Medicare        Total
Date             Description           Company       Segment       Segment        Medicare

 1997    Contributions                 $3,098,039    $2,984,557     $113,482
8.50%    Discount for interest           (210,497)     (202,786)      (7,711)
1/1/97   Present value contributions    2,887,542     2,781,771      105,771
         Prepayment credit applied        867,817       786,774       81,043
         Present value of funding       3,755,359     3,568,545      186,814

1/1/97   CAS funding target             2,000,433     1,813,619      186,814
         Percentage funded                              100.00%      100.00%
         Funded pension cost                          1,813,619      186,814
         Allowable interest                              61,825        6,368
         Allocable pension cost                       1,875,444      193,182
1997     Fiscal year pension cost                     1,782,948      158,608
         Medicare LOB* percentage                         0.97%      100.00%

         Allowable pension cost                        $17,295      $158,608        $175,903




 1998    Contributions                   $540,000      $540,000           $0
9.00%    Discount for interest            (35,545)      (35,545)           0
1/1/98   Present value contributions      504,455       504,455            0
         Prepayment credit applied      1,636,254     1,636,254            0
         Present value of funding       2,140,709     2,140,709            0

1/1/98   CAS funding target             1,636,254     1,636,254            0
         Percentage funded                              100.00%        0.00%
         Funded pension cost                          1,636,254            0
         Allowable interest                                   0            0
         Allocable pension cost                       1,636,254            0
1998     Fiscal year pension cost                     1,696,052       48,296
         Medicare LOB* percentage                         3.14%      100.00%

         Allowable pension cost                        $53,256       $48,296        $101,552
                                                                               APPENDIX A
                                                                                 Page 7 of 12


                                        Total        "Other"       Medicare       Total
Date             Description           Company       Segment       Segment       Medicare

 1999    Contributions                 $2,574,322    $2,574,322           $0
9.00%    Discount for interest           (206,373)     (206,373)           0
1/1/99   Present value contributions    2,367,949     2,367,949            0
         Prepayment credit applied        841,803       841,803            0
         Present value of funding       3,209,752     3,209,752            0

1/1/99   CAS funding target             1,937,045     1,937,045            0
         Percentage funded                              100.00%        0.00%
         Funded pension cost                          1,937,045            0
         Allowable interest                              69,822            0
         Allocable pension cost                       2,006,867            0
1999     Fiscal year pension cost                     1,914,214            0
         Medicare LOB* percentage                         4.45%      100.00%

         Allowable pension cost                        $85,183            $0        $85,183




 2000    Contributions                 $1,145,537    $1,145,537           $0
9.00%    Discount for interest            (87,227)      (87,227)           0
1/1/00   Present value contributions    1,058,310     1,058,310            0
         Prepayment credit applied        694,081       694,081            0
         Present value of funding       1,752,391     1,752,391            0

1/1/00   CAS funding target              694,081        694,081            0
         Percentage funded                              100.00%        0.00%
         Funded pension cost                            694,081            0
         Allowable interest                                   0            0
         Allocable pension cost                         694,081            0
2000     Fiscal year pension cost                     1,022,278            0
         Medicare LOB* percentage                         1.59%      100.00%

         Allowable pension cost                        $16,254            $0        $16,254
                                                                                 APPENDIX A
                                                                                   Page 8 of 12


                                        Total          "Other"       Medicare       Total
Date             Description           Company         Segment       Segment       Medicare

 2001    Contributions                  $6,212,972     $6,212,972           $0
9.00%    Discount for interest            (493,299)      (493,299)           0
1/1/01   Present value contributions     5,719,673      5,719,673            0
         Prepayment credit applied       1,909,112      1,909,112            0
         Present value of funding        7,628,785      7,628,785            0

1/1/01   CAS funding target              2,157,527      2,157,527            0
         Percentage funded                                100.00%        0.00%
         Funded pension cost                            2,157,527            0
         Allowable interest                                15,836            0
         Allocable pension cost                         2,173,363            0
2001     Fiscal year pension cost                       1,803,543            0
         Medicare LOB* percentage                           1.12%      100.00%

         Allowable pension cost                          $20,200            $0        $20,200




 2002    Contributions                 $11,499,754    $11,499,754           $0
9.00%    Discount for interest            (949,521)      (949,521)           0
1/1/02   Present value contributions    10,550,233     10,550,233            0
         Prepayment credit applied       3,366,036      3,102,479      263,557
         Present value of funding       13,916,269     13,652,712      263,557

1/1/02   CAS funding target              3,366,036      3,102,479      263,557
         Percentage funded                                100.00%      100.00%
         Funded pension cost                            3,102,479      263,557
         Allowable interest                                     0            0
         Allocable pension cost                         3,102,479      263,557
2002     Fiscal year pension cost                       2,870,200      197,668
         Medicare LOB* percentage                           1.19%      100.00%

         Allowable pension cost                          $34,155      $197,668       $231,823
                                                                                 APPENDIX A
                                                                                   Page 9 of 12


                                        Total          "Other"       Medicare       Total
Date             Description           Company         Segment       Segment       Medicare

 2003    Contributions                  $9,531,000     $9,531,000           $0
8.50%    Discount for interest            (741,068)      (741,068)           0
1/1/03   Present value contributions     8,789,932      8,789,932            0
         Prepayment credit applied       5,523,316      5,043,423      479,893
         Present value of funding       14,313,248     13,833,355      479,893

1/1/03   CAS funding target              5,523,316      5,043,423      479,893
         Percentage funded                                100.00%      100.00%
         Funded pension cost                            5,043,423      479,893
         Allowable interest                                     0            0
         Allocable pension cost                         5,043,423      479,893
2003     Fiscal year pension cost                       4,558,187      425,809
         Medicare LOB* percentage                           1.09%      100.00%

         Allowable pension cost                          $49,684      $425,809       $475,493




 2004    Contributions                 $13,221,000    $13,221,000           $0
8.50%    Discount for interest            (991,831)      (991,831)           0
1/1/04   Present value contributions    12,229,169     12,229,169            0
         Prepayment credit applied       6,207,944      5,654,433      553,511
         Present value of funding       18,437,113     17,883,602      553,511

1/1/04   CAS funding target              6,207,944      5,654,433      553,511
         Percentage funded                                100.00%      100.00%
         Funded pension cost                            5,654,433      553,511
         Allowable interest                                     0            0
         Allocable pension cost                         5,654,433      553,511
2004     Fiscal year pension cost                       5,501,681      535,107
         Medicare LOB* percentage                           1.77%      100.00%

         Allowable pension cost                          $97,380      $535,107       $632,487
                                                                                  APPENDIX A
                                                                                   Page 10 of 12


                                           Total        "Other"       Medicare       Total
  Date                Description         Company       Segment       Segment       Medicare

  2005      Contributions                 $8,000,000    $8,000,000           $0
 8.00%      Discount for interest           (592,593)     (592,593)           0
 1/1/05     Present value contributions    7,407,407     7,407,407            0
            Prepayment credit applied      7,540,084     6,895,604      644,480
            Present value of funding      14,947,491    14,303,011      644,480

 1/1/05     CAS funding target             7,540,084     6,895,604      644,480
            Percentage funded                              100.00%      100.00%
            Funded pension cost                          6,895,604      644,480
            Allowable interest                                   0            0
            Allocable pension cost                       6,895,604      644,480
  2005      Fiscal year pension cost                     6,585,311      621,738
            Medicare LOB* percentage                         1.10%      100.00%

            Allowable pension cost                        $72,438      $621,738       $694,176




  2006      Contributions                 $5,000,000    $5,000,000           $0
 8.00%      Discount for interest           (370,370)     (370,370)           0
 1/1/06     Present value contributions    4,629,630     4,629,630            0
            Prepayment credit applied      8,047,273     7,372,018      675,255
            Present value of funding      12,676,903    12,001,648      675,255

 1/1/06     CAS funding target             8,047,273     7,372,018      675,255
            Percentage funded                              100.00%      100.00%
            Funded pension cost                          7,372,018      675,255
            Allowable interest                                   0            0
            Allocable pension cost                       7,372,018      675,255
  2006      Fiscal year pension cost                     7,252,915      667,561
            Medicare LOB* percentage                         0.97%      100.00%

            Allowable pension cost                        $70,353      $667,561       $737,914


* Line of business.
                                                                                                           APPENDIX A
                                                                                                            Page 11 of 12
FOOTNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500
    reports. The contributions included deposits made during the plan year and accrued contributions deposited after
    the end of the plan year but within the time allowed for filing tax returns. We determined the contributions
    allocated to the Medicare segment during the pension segmentation review (A-07-08-00266). The amounts shown
    for the "Other" segment represent the difference between the Total Company and the Medicare segments.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year
    to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
    computed the interest as the difference between the present value of contributions (at the valuation interest rate) and
    actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the
    first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to
    have been made on the final day of the plan year, consistent with the method mandated by the Employee Retirement
    Income Security Act.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A 

    prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards 

    (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS pension costs. 


 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the 

    amount of funding that is available to cover the CAS funding target measured at the first day of the plan year.


 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the
    Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the
    plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance
    with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed the percentage
    funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the
    percentage of funding has been rounded to four decimals.

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same 

    proportion as the interest on contributions bears to the present value of contributions. However, we limited the 

    interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the 

    interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal 

    installments deposited within 30 days after the end of the quarter. 


10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
                                                                                                        APPENDIX A
                                                                                                         Page 12 of 12

11/ We converted the plan year (January 1 through December 31) allocable pension costs to a fiscal year (FY) basis
    (October 1 through September 30). We calculated the FY pension costs as 1/4 of the prior year’s costs plus 3/4 of
    the current year’s costs.

12/ We calculated allowable pension costs of the Medicare segment and "Other" segment based on the Medicare line of
    business (LOB) percentage of each segment. The Medicare segment charged 100 percent of its pension costs to
    Medicare. The "Other" segment charged only a portion of its pension costs to Medicare. For FYs 1988–1992,
    Triple-S was unable to provide complete documentation by year in order to calculate a LOB percentage for each
    specific year. However, we were able to estimate the LOB percentage by calculating the change in the Medicare
    segment head count to Total Company head count from year to year and multiplying that percent change in head
    count to the succeeding year’s LOB percentage, starting with FY 1993. For FYs 1993–2005, we obtained the
    percentages from documentation provided by Triple-S that was specific to each year.

13/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB
    percentage. Pursuant to CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare
    contract consisted of the Medicare segment’s direct pension costs plus "Other" segment pension costs attributable to
    indirect Medicare operations.
APPENDIX B
  Page 1 of 3
APPENDIX B
  Page 2 of 3
APPENDIX B
  Page 3 of 3
